                                     OFFICE OF THE ASSISTANT SECRETARY OF DEFENSE
                                                  2 9 0 0 DEFENSE PENTAGON
                                                 WASHINGTON, DC 2 0 3 0 1 - 2 9 0 0




I N T E R N A T I O N A L SECURITY
               POLICY
                                                                                        DEC 1 8 2006

             Mr. Terry S. Zobcck
             Deputy Associate Director
             Planning and Budget
             Office of National Drug Control Policy
             750 17lh Street, NW
             Washington, DC 20503

             Dear Mr. Zobeck:

                     In my capacity as Acting Deputy Assistant Secretary of Defense for
             Counternarcotics, I assert that the drug methodology used to calculate obligations by drug
             control function of Fiscal Year 2006 budgetary resources is reasonable and accurate. I
             further assert that the obligation table in TAB A was generated by the methodology as
             reflected in TAB B. The obligations arc associated with a financial plan that properly
             reflects all changes made during the fiscal year. The Counternarcotics Central Transfer
             Account does not receive Fund Control Notices and, therefore, any assertion regarding this
             is inapplicable.


                                                            Sincerely,




                                                            Edward Frothingham III
                                                            Acting Deputy Assistant Secretary of Defense for
                                                            Counternarcotics



             Enclosures:
             As stated

             CF:
             DOD1G




                                                               [recycling sy
CENTRAL TRANSFER ACCOUNT

                                          FY06
         Intelligence                  141,261
         Interdiction                  479,303
          Investigative                  43,774
         Prevention                    166,694
         R&D                            15,482
         State & Local Assistance      116,028
         Treatment                        7,104
         Total                         969,646 *

*This amount includes a 99% obligation rate for MILPERS and a 97% obligation rate for O&M
Investment appropriations, which are multi-year, are currently obligated at 64%.



DRUG RESOURCES PERSONNEL SUMMARY

         Total FTEs                       1,254
                                          1,254
                                   DRUG METHODOLOGY


Central Transfer Account

        The Counternarcotics Central Transfer Account (CTA) was established in PBD 678
in November 1989. Under the CTA, funds are appropriated by Congress to a single
budget line, not to the Services baselines. The CTA accounts for all counternarcotics
resources for the Department of Defense with the exception of OPTEMPO and Active Duty
MILPERS. Funds are reprogrammed from the CTA to the Services and Defense Agencies
in the year of execution. The CTA allows for greater execution flexibility in the
counternarcotics program with the ability to realign resources to address changes in
requirements. The CTA is essential to respond effectively to the dynamic nature of the
drug threat.

       The Office of National Drug Control Policy (ONDCP) reports within the National
Drug Control Strategy the amount of funds appropriated to the counternarcotics CTA. The
actual obligations for the counternarcotics program for a particular fiscal year differ from
the amount released to the CTA since some of the DoD counternarcotics effort is executed
with multi-year funding.

       The reprogramming process begins with reprogramming documents (DD1415 and
DD1105) prepared by the Office of the Deputy Assistant Secretary of Defense for
Counternarcotics and forwarded to DoD Comptroller. Funds are reprogrammed to the
applicable appropriation/budget activity at the Service/Defense Agency by project (e.g.,
Navy's Fleet Support, Hemispheric Radar System, Counternarcotics RDT&E). The
internal reprogramming (IR) action requires no congressional notification/approval.

         The Services/Defense Agencies have their own internal accounting systems for
tracking obligations of funds transferred from the Counternarcotics CTA. The following
examples provide the process of how obligations are tracked:
• The Army Budget Office receives obligation data from the Defense Finance and
    Accounting System (DFAS) on a monthly basis and funds are tracked by the
    DFAS/Standard Army Financial Information System (STANFINS).
• The Air Force uses the USAF General Accounting & Finance System (GAFS) and the
    Commanders Resources Integration System (CRIS) to track obligations. Both of these
    systems are utilized for Counternarcotics obligations and commitments. These
    systems interface directly with the DFAS.
• The Navy uses the Standard Accounting and Reporting System, Field Level (STARS-
    FL) which provides the means of tracking allocated counternarcotics funds through the
    life cycle of the appropriation at the activity/field level. Navy counternarcotics funding is
    recorded under separate cost centers and sub-cost centers, with a line of accounting
    consisting of subhead, project units and cost codes specifically for counternarcotics
    obligation tracking.
• The Army and Air National Guard employs a central accounting service from the DFAS
    to consolidate, aggregate, and report on funds as they are committed, obligated, and
    expended. The Army State and Federal Program Accounting Codes and the Air
   Accounting Codes provide funds-tracking mechanisms to reconcile funding at various
   levels of reporting and execution.

       The Services/Defense Agencies provide quarterly obligation reports by project code
to the Office of the Deputy Assistant Secretary of Defense for Counternarcotics (CN).
These individual reports are recorded on a spreadsheet and compiled into a single
counternarcotics obligation report. The obligation and expenditure data provided by the
Services/Defense Agencies are compared against their total annual counternarcotics
funding for each appropriation. At the end of the year, the Services/Defense Agencies
provide an end of year status report which reflects their actual obligation data, not an
estimation.

       The quarterly obligation reports provided by the Services/Defense Agencies include
obligation and expenditure data by project code, not down to the drug control function. In
order to comply with ONDCP's circular and provide obligation data by function, it was
necessary to use percentages for each project code.
                                  INSPECTOR GENERAL
                                 DEPARTMENT 0F DEFENSE
                                    400 ARMY NAVY DRIVE
                               ARLINGTON, VIRGINIA 22202-4704

                                                                             January 29, 2007

MEMORANDUM FOR THE DEPUTY ASSISTANT SECRETARY OH DEFENSE
               (COUNTERNARCOTICS)

SUBJECT: Independent Auditor's Report on the DoD FY 2006 Detailed Accounting
Report of the Funds Obligated for National Drug Control Program Activities
(Report No. D-2007-052)

        Public Law 105-277 is known also as "The Office of National Drug Control Policy
Reauthorization Act" (the Act). The Act requires that DoD annually submit a detailed report
(the Report) to the Director of the Office of National Drug Control Policy accounting for all
funds DoD expended for National Drug Control Program activities during the previous
fiscal year. The Report is due no later than February 1 each year. The Act also requires that
the Inspector General of the Department of Defense authenticate the Report prior to its
submission to the Director.

        Office of National Drug Control Policy Circular "Drug Control Accounting," (the
Accounting Policy Circular) April 18, 2003, provides the policies and procedures DoD must
use to prepare the Report and authenticate the DoD funds expended on National Drug
Control Program activities. 'The Accounting Policy Circular specifies that the Report must
contain a table of prior year drug control obligations, listed by functional area, and include
five assertions relating to the obligation data presented in the table.

        The Deputy Assistant Secretary of Defense (Counternarcotics) (DASD[CN]) was
responsible for the detailed accounting of funds obligated and expended by DoD for the
National Drug Control Program for FY 2006. We have reviewed the DASD (CN) detailed
accounting in accordance with the attestation standards established by the American Institute
of Certified Public Accountants and in compliance with generally accepted government
accounting standards. A review-level attestation is substantially less in scope than an
examination done to express an opinion on the subject matter. Accordingly, we do not
express an opinion.

       We reviewed four DoD reprogramming actions that allocated $1,022.9 million
among the Military Departments, National Guard, and Defense agencies. We determined
that DASD (CN) had allocated the funds to appropriations and project codes intended for the
DoD Counterdrug program. We obtained the year-end obligation reports from the Military
Departments and National Guard.

       The DoD Office of Inspector General issued Report No. D-2006-012, "Report on
Controls Over Funds Used by DoD for the National Drug Control Program" on November 7,
2005, which concluded that the funds allocated to the Counterdrug program were used for
Counterdrug purposes for the transactions tested. However, we identified a material
management control weakness related to the DoD Components' accounting tor Counterdrug
funds. In response to our identification of this weakness, DASD (CN) issued a policy
memorandum on August 25, 2005, requiring detailed transaction support for ail Counterdrug
obligations.

        As part of our review attestation for FY 2006, we determined whether the DoD
Components that received Counterdrug funding from DASD (CN) had implemented
procedures to support reported obligations with detailed transaction listings. We requested
and obtained the listings that were available for reported obligations; however, the Military
Components were not able to support all Counterdrug obligations with detailed transaction
listings. The Army and Navy were able to support a majority of their reported obligations
with detailed transaction listings. In contrast, the Air Force and National Guard had not
implemented adequate procedures to support their reported obligations with detailed
transaction listings.

       DASD (CN) provided us the Report in a letter dated December 18, 2006, which we
reviewed to determine compliance with the Accounting Policy Circular. The detailed
accounting indicated that $969.6 million was obligated during FY 2006 for the DoD
Counterdrug program in seven functional areas. The Office of the DASD (CN) manually
compiled the Report from data the Military Departments and other DoD Components
submitted.

        DASD (CN) initially reprogrammed the funds from the Central Transfer Account to
the DoD Components, using project codes. The DoD Components provided year-end
obligation reports, identified by the same project codes, to the Office of the DASD (CN).
The Office of the DASD (CN) consolidated the year-end obligation reports into one
obligation report. In order to present the obligations by functional area in compliance with
the Accounting Policy Circular, the Office of the DASD (CN) applied percentages to each
project code in the consolidated report to compute the amounts presented in the table of
obligations instead of obtaining the information directly from the accounting systems.

        We cannot attest to the amounts presented in the Report's table of obligations.
However, we can attest that the methodology described in the Report is the methodology
used to generate the amounts presented. Based on our review, except for the fact that the
Office of the DASD (CN) used percentages to calculate the obligations presented by
functional area, nothing came to our attention during the review that caused us to believe the
detailed accounting of funds obligated by DoD on the National Drug Control Program for
FY 2006 is not presented, in all material respects, in conformity with the Accounting Policy
Circular,




                                             7
                                    Paul J. Granetto, CPA
                          Assistant Inspector General and Director
                            Defense Financial Auditing Service
